   June 24, 2004




Acquisition
Direct Care Medical Services Contracts
(D-2004-094)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

DCADS                 Defense Contract Action Data System
FAR                   Federal Acquisition Regulation
FBA                   Franchise Business Activity
FICA                  Federal Insurance Contributions Act
FISC                  Fleet Industrial Supply Center
GAO                   General Accounting Office
HCAA                  Health Care Acquisition Activity
IG DoD                Inspector General of the Department of Defense
iMAP                  Innovative Medical Acquisition Program
ISA                   Individual Set-Aside
MATO                  Multiple Award Task Order
MTF                   Military Treatment Facility
NMLC                  Naval Medical Logistics Command
OASD(HA)              Office of the Assistant Secretary of Defense (Health Affairs)
OUSD(AT&L)            Office of the Under Secretary of Defense for Acquisition,
                         Technology, and Logistics
          Office of the Inspector General of the Department of Defense
Report No. D-2004-094                                                        June 24, 2004
   (Project No. D2003LF-0127)

                     Direct Care Medical Services Contracts

                                 Executive Summary

Who Should Read This Report and Why? Contract personnel responsible for
procuring medical services and military and civilian health care professionals within the
Military Health System and the Department of Veterans Affairs should read this report.
Those responsible for acquiring and providing medical services should be interested in
the need for an acquisition strategy that would allow the Military Departments to acquire
direct care medical services in a more effective manner.

Background. The Under Secretary of Defense for Acquisition, Technology, and
Logistics is the adviser to the Secretary and the Deputy Secretary of Defense for all
matters relating to the DoD acquisition system and to procurement. The Office of the
Assistant Secretary of Defense (Health Affairs) exercises authority, direction, and control
over the facilities, funding, personnel, programs, and other medical resources within
DoD. TRICARE is a regionally managed health care program for active duty and retired
members of the uniformed services, their families, and survivors.

TRICARE brings together the health care resources of the Army, the Navy, and the Air
Force and supplements them with purchased care contracts that provide direct health care
through health care institutions and individual providers in the civilian community. To
help fill needs that cannot be satisfied through military treatment facilities or through
purchased care contracts under TRICARE, the Military Departments issue direct care
medical services contracts to augment the military and civilian staffs. In 2002, DoD
spent about $875 million to acquire medical services through direct care medical services
contracts, excluding information technology contracts. We reviewed 125 of those
contracts, valued at approximately $73 million.

Results. We reviewed the contracts and the contracting processes to determine whether
DoD was acquiring direct care medical services in the most effective manner. Although
DoD and the Military Departments had ongoing initiatives regarding the acquisition of
direct care medical services, an overall strategic approach is needed. Specifically, at the
sites visited, there were examples of overlapping contracting efforts, inconsistent
implementation of Federal procurement regulations, use of contracts that may impose an
unnecessary administrative and financial burden on the Government, and inadequate
oversight of competition achieved.

To improve the acquisition of direct care medical services, the Office of the Assistant
Secretary of Defense (Health Affairs) and the Military Departments should develop a
joint strategy for acquiring direct care medical services and strengthen guidance and
oversight for those acquisitions. A more coordinated approach to acquiring direct care
medical services in DoD should enable military treatment facilities to more effectively
satisfy medical services requirements and address material management control
weaknesses identified by this audit. Although we have cited examples where medical
services contracting could have been improved, nothing in this report should be
interpreted as though the Military Health System has not provided quality health care to
its beneficiaries. For detailed recommendations, see the Finding section. The issues
identified in this report provide coordination opportunities for DoD and the Department
of Veterans Affairs; therefore, the report will be forwarded to the DoD/Department of
Veterans Affairs Joint Executive Council.

Management Comments and Audit Response. The Office of the Under Secretary of
Defense for Acquisition, Technology, and Logistics; the Acting Under Secretary of
Defense (Comptroller)/Chief Financial Officer; the Assistant Secretary of Defense
(Health Affairs); the Deputy Surgeon General of the Army; and the Office of the Air
Force Surgeon General generally concurred with the findings and the intent of all the
recommendations. Management comments were responsive. However, the Air Force
disagreed with developing implementing policy on the appropriate use of forward
funding, citing that the timing for the release of funding for medical services acquisitions
needs to be addressed in order to permit procurement personnel to timely establish
medical services contracts.

The Assistant Secretary of Defense (Health Affairs) commented that the examples cited
in this report of forward funding are within the bounds of section 2410a, title 10, United
States Code. We acknowledge that use of the statute is permissible and have revised our
posture on the Navy’s interpretation of the forward funding statute. However, due to the
lack of uniformity regarding the use of Franchise Business Activity contracts to forward
fund appropriations from one fiscal year for work performed in the next fiscal year,
additional guidance would be appropriate. See the Finding section of the report for a
discussion of management comments and the Management Comments section for the
complete text of the comments.

The Under Secretary of Defense for Personnel and Readiness and the Navy Surgeon
General did not respond to the draft report. We request that the Under Secretary of
Defense for Personnel and Readiness and the Navy Surgeon General provide comments
on the final report by August 24, 2004.




                                             ii
Table of Contents

Executive Summary                                                             i

Background                                                                    1

Objectives                                                                    2

Finding
     Acquisition of Direct Care Medical Services                             4

Appendixes
     A. Scope and Methodology                                                19
          Management Control Program Review                                  21
     B. Prior Coverage                                                       22
     C. Contractual Methods                                                  23
     D. Summary of Recent Legislation on DoD Services Contracts              26
     E. DoD and Military Department Initiatives                              27
     F. Report Distribution                                                  29

Management Comments
     Under Secretary of Defense for Acquisition, Technology, and Logistics   31
     Under Secretary of Defense (Comptroller)/Chief Financial Officer        33
     Assistant Secretary of Defense (Health Affairs)                         35
     Army Surgeon General                                                    41
     Air Force Surgeon General                                               43
Background
    DoD Procurement. The Under Secretary of Defense for Acquisition,
    Technology, and Logistics is the adviser to the Secretary and the Deputy
    Secretary of Defense for all matters relating to the DoD acquisition system and to
    procurement. The Under Secretary of Defense for Acquisition, Technology, and
    Logistics serves as the Defense Acquisition Executive, and in that capacity,
    establishes policy for acquisition plans and strategies and develops acquisition
    program guidance.

    Military Health System. The Assistant Secretary of Defense (Health Affairs) is
    the principal staff assistant and adviser to the Under Secretary of Defense for
    Personnel and Readiness for all DoD health policies, programs, and activities. As
    such, the Office of the Assistant Secretary of Defense (Health Affairs)
    (OASD[HA]) exercises authority, direction, and control over the facilities,
    funding, personnel, programs, and other medical resources within DoD. Its
    responsibilities include establishing policies, procedures, and standards that
    govern DoD health care programs. The mission of the military health system is to
    enhance DoD and our Nation’s security by providing health care support for the
    full range of military operations and sustaining the health of DoD beneficiaries.

    TRICARE is a regionally managed health care program for active duty and retired
    members of the uniformed services, their families, and survivors. TRICARE
    brings together the health care resources of the Army, the Navy, and the Air Force
    and supplements them with purchased care contracts that provide direct health
    care through health care institutions and individual providers in the civilian
    community. Those purchased care contracts include networks of civilian health
    care professionals that supplement the direct health care resources of the Military
    Departments to improve access to high quality services while maintaining the
    capability to support military operations. To help fill needs that cannot be
    satisfied through DoD military treatment facility (MTF) personnel or through
    purchased care contracts under TRICARE, the Military Departments issue direct
    care medical services contracts to augment the direct health care military and
    civilian staffs of the Military Departments. For purposes of this report, we refer
    to those contracts as non-TRICARE medical services contracts.

    Military Departments. Each Military Department has its own organizational
    structure in place for acquiring non-TRICARE medical services. The Military
    Department Surgeons General have delegated responsibility for medical services
    acquisitions to the Army Health Care Acquisition Activity (HCAA), the Naval
    Medical Logistics Command (NMLC), and the Air Force Medical Logistics
    Office. The organizational structure of those offices varies, as do the number and
    size of the contracting offices reporting to them.

    The Army has the largest organizational structure dedicated to health care
    procurement. The Army acquires medical services through the HCAA and its
    contracting center, six regional contracting offices, and three contracting cells.
    Additionally, various Army MTFs sought contracting support from other
    agencies. HCAA Operating Instruction 04-02, “Procedures for Processing
    Contract Requirements,” October 30, 2003, states that regional contracting offices
    may process requirements for commercial items up to $5 million in value. HCAA


                                         1
    Policy Letter 98-01, “HCAA Commercial Policy,” April 21, 1998, designates
    health care services as commercial items. Thus, the contracting center procures
    non-TRICARE medical services valued at $5 million or higher and regional
    contracting offices make purchases from $500,000 to $5 million. The contracting
    center also processes actions under $5 million when the action covers more than
    one region, covers other agencies, or the regional contracting office requests.
    According to HCAA officials, contracting cells may make procurements up
    to $500,000 for the Army.

    The Navy also has a centralized approach. NMLC is the technical manager for
    the Bureau of Medicine and Surgery for all non-TRICARE health care services
    contracting and has approval authority for the technical specifications for all
    health care services contracts. According to NMLC officials, NMLC is the
    contracting office for personal services health care contracts, while Fleet
    Industrial Supply Center (FISC) Norfolk, Detachment Philadelphia, is the
    contracting office for non-personal services contracts over the simplified
    acquisition threshold of $100,000. Procurements of $100,000 or less may be
    made locally.

    The Air Force structure is decentralized. The Air Force Medical Logistics Office
    has responsibility for medical services contract policy, but has no contracting
    warrants or authority. The Air Force directs MTFs to use base contracting
    resources, the Federal supply schedule through the Air Force partnership with the
    Department of Veterans Affairs, or other agencies’ contracting authority for
    medical services acquisitions.

    Contractual Methods. Contracting for health care professionals, such as
    physicians and nurses, is complex. It is often difficult to fill skilled health care
    vacancies, particularly in remote geographical locations. There are a variety of
    contractual methods available to help DoD medical facilities fill their
    supplemental needs, such as Federal supply schedule contracts, local contracts
    with individuals or commercial organizations, and nationwide or regional
    contracts that are delivery-order based. Appendix C provides information on the
    various contractual methods used by the Military Departments to acquire
    non-TRICARE medical services.

    Non-TRICARE Medical Services Contract Actions. DoD accumulates data on
    contract actions over $25,000 in the Defense Contract Action Data System
    (DCADS). According to DCADS data, DoD spent about $1.2 billion in 2002 on
    non-TRICARE medical services contracts. Of that amount, approximately
    $875 million was used to acquire services such as health care providers,
    laboratory testing services, and ancillary services; the rest was for health care
    information technology services.

Objectives
    Our overall audit objective was to evaluate the efficiency and effectiveness of
    DoD contracting practices and procedures for acquiring non-TRICARE medical
    services and to evaluate the management control program applicable to the audit
    objective.


                                          2
See Appendix A for a discussion of the scope and methodology and our review of
the management control program and Appendix B for prior coverage related to
the objective.




                                   3
                   Acquisition of Direct Care Medical
                   Services
                   Although DoD and the Military Departments had ongoing initiatives that
                   may lead to improvements in the acquisition of direct care
                   (non-TRICARE) medical services, the approach to acquiring those
                   services remained fragmented. Specifically, the audit identified examples
                   where the approach used by the Military Health System included:

                            •   overlapping contracting efforts;

                            •   inconsistent application and award of non-personal services
                                contracts;

                            •   liberal interpretation of forward funding guidance;

                            •   different methods of awarding minimum guaranteed work
                                under multiple award task order (MATO) contracts;

                            •   inappropriate use of individual set-aside contracts; and

                            •   inadequate oversight of competition achieved.

                   The OASD(HA) and the Military Departments need to develop a joint
                   strategy and strengthen guidance and oversight to improve the acquisition
                   of non-TRICARE medical services. A more coordinated approach to
                   acquiring non-TRICARE medical services in DoD should enable the
                   Military Health System to more effectively satisfy medical requirements.

DoD and Military Department Initiatives
           DoD and the Military Departments had ongoing initiatives that may lead to
           improvements in the acquisition of non-TRICARE medical services. Public
           Law 106-398, “National Defense Authorization Act for FY 2001,”
           October 30, 2000, requires the Secretary of each Military Department to establish
           at least one center of excellence in contracting for services. The Army designated
           HCAA as a center of excellence for health care services acquisitions and
           implemented the Innovative Medical Acquisition Program (iMAP) during
           FY 2002. The iMAP primarily consisted of Web-based contracting tools,
           including two large MATO contracts awarded as small business set-asides with
           nationwide coverage to promote inter-Service use.1 However, as of
           December 2003, the Navy had not used the iMAP contracts, and the Air Force
           had used them only to a small extent, with the Army placing orders for Air Force
           MTFs. The Military Departments also formed a tri-Service working group to

1
    A MATO contract is established when two or more awards are made from the same solicitation, resulting
    in a pool of pre-qualified vendors to perform the work of the contract. Appendix C includes an
    explanation of MATO contracts.



                                                     4
           improve medical services procurement. Although the group provides a forum to
           promote the inter-Service use of contracting resources, the group continues to
           struggle with contracting issues such as delegation of contracting authority among
           the Military Departments and the inability to delegate DoD personal services
           contracting authority to the Department of Veterans Affairs. Recent legislation
           intended to improve DoD acquisition of services is provided in Appendix D, and
           DoD and Military Department initiatives are discussed in more detail in
           Appendix E.


Use of Contractual Resources
           The DoD approach to acquiring non-TRICARE medical services was inconsistent
           and fragmented. Resources could have been more consistently and effectively
           used to acquire non-TRICARE medical services. Specifically, the audit identified
           examples where the acquisition approaches used by the Military Health System
           included:

                   •   overlapping contracting efforts;

                   •   implementing federal procurement regulations differently;

                   •   extensively using contracts with individuals that may impose an
                       unnecessary administrative and financial burden on the government;
                       and

                   •   inadequate oversight of competition achieved.

           Contracting Efforts. MTFs did not always adhere to lines of contracting
           authority established within their respective Military Department. For instance,
           one Army MTF visited had locally issued 84 individual set-aside (ISA) contracts
           (contracts with individual health care providers), valued at $3.6 million, to satisfy
           nearly all of its FY 2002 non-TRICARE medical services requirements.2
           According to personnel from the MTF’s cognizant Regional Contracting Office,
           at least 80 of the 84 ISAs could have been filled by existing Army contracts,
           reducing the burden of administering 84 separate contracts. Although Military
           Department regulations prescribe preferred sources to acquire non-TRICARE
           medical services, MTF personnel stated factors such as timeliness sometimes
           dictated the contracting office used by an MTF. For example, one Air Force and
           one Army MTF, in an effort to achieve a quicker turnaround, used a non-DoD
           agency3 to fulfill its nursing requirements via a potentially illegal and
           unenforceable contract even though the Army had existing contracts for nursing
           services available for the same geographic area. Timeliness was also cited as the
           reason one Navy MTF used FISC San Diego to contract for $1.5 million in


2
    The Army reduced the number of ISA contracts from 84 in FY 2002 to 63 in FY 2003.
3
    As discussed in Inspector General of the Department of Defense Report No. D-2003-113, “Franchise
    Business Activity Contracts for Medical Services,” June 30, 2003, MTFs sometimes went to the
    Department of the Treasury for medical services, including personal services.



                                                     5
medical services during FY 2002 that should have been awarded through NMLC
or FISC Norfolk, Detachment Philadelphia.

At times, the Military Departments procured through separate contracts the same
types of medical services and, in some instances, in the same geographic area.
According to Army and Navy contracting personnel, they generally do not
consider use of each other’s contracts to acquire non-TRICARE medical services.
By reviewing DCADS data, we found eight potentially overlapping Army and
Navy contracts for nursing and dental services. The DCADS data showed that
both the Army and the Navy had contracts in the same geographic areas
(Beaufort, South Carolina; Newport News, Virginia; Honolulu, Hawaii; and the
District of Columbia) for the same services (nursing or dentistry).

Although we recognize that the Military Departments need their own contracting
capabilities so that emergent requirements can be quickly satisfied, we believe
more can be done to reduce duplication and improve efficiency in contracting
organizations. OASD(HA) and the Military Departments need to reexamine the
organizational structure of the medical contracting community to provide for
greater sharing of resources and contracts among and within the Military
Departments. Personnel interviewed stated that they were reluctant to use
contracts originating from another Military Department in part because they
believed their needs would not be filled in a timely manner. Contracting
personnel also stated that they believed allowing another Military Department to
use their department’s contracts would result in increased administrative
workload without a corresponding increase in resources.

Personal and Non-Personal Services Contracts. The Military Departments
inconsistently applied and awarded non-personal services contracts for
non-TRICARE medical services. Contracts for medical services may be either
personal or non-personal in nature. Personal services contracts are characterized
by an employer-employee relationship between the Government and the contract
health care provider. DoD Instruction 6025.5, “Personal Services Contracts
(PSCs) for Health Care Providers (HCPs),” January 6, 1995, states a personal
services contract is the preferred method to use when hiring health care providers.
Personal services contracts are generally less expensive than non-personal
services contracts because the Government assumes the risk of medical
malpractice. In a medical setting, according to the instruction, the direction and
supervision of contractors is an assumption of liability, and the Government will
provide legal representation for medical malpractice claims brought against a
contractor working under such circumstances.

Non-personal services contracts should not be used to avoid the lack of a
contracting officer’s authority to enter into personal services contracts when
personal services are to be provided. According to the NMLC legal counsel, only
a contract properly awarded under section 1091, title 10, United States Code
(10 U.S.C. 1091) can trigger the malpractice protection provided under
10 U.S.C. 1089. Thus, a contract awarded for non-personal services but
administered as a personal services contract exposes the Government to
unnecessary risk, because the contract may be unenforceable if it creates an
employer-employee relationship between the Government and the contract health
care provider. Further, under such circumstances, the Government may be


                                     6
reimbursing the contractor for carrying unneeded malpractice insurance because
the contractor’s bid likely reflects that expense.

It appears that the Military Departments awarded contracts as personal or
non-personal based on the contracting authority of the issuing office and
timeliness rather than the true nature of the work. Although the Army and the
Navy predominately used personal services contracts appropriately, the Air Force
used non-personal services contracts almost exclusively for all types of medical
services because the Veterans Affairs office that provides the majority of
contractual support did not have the authority to issue personal services contracts
for DoD. Additionally, at one Navy MTF visited, non-personal services contracts
for non-TRICARE medical services were awarded through the Federal supply
schedule because MTF personnel responsible for those contracts believed that
was the quickest way to acquire the services at year’s end. Further, out of
31 non-personal services contract action awards reviewed, there were 12 that we
believe should have been personal services contracts because there was an
employer-employee relationship between the Government and the contract health
care provider.

We believe that OASD(HA) and the Military Departments need to issue
additional guidance clarifying the proper use of personal and non-personal
services contracts and need to strengthen oversight to ensure personal services
contracts are used when appropriate. The President’s Management Agenda
contains a specific program initiative to improve sharing between DoD and the
Department of Veterans Affairs, and we believe incompatible contracting
authority is a barrier to sharing. DoD and the Department of Veterans Affairs
established a Joint Executive Council, which is co-chaired by the Under Secretary
of Defense for Personnel and Readiness and the Deputy Secretary of Veterans
Affairs. To improve sharing, we believe the DoD/Department of Veterans Affairs
Joint Executive Council should consider solutions to barriers caused by the
Department of Veterans Affairs’ inability to award personal services contracts for
DoD.

Forward Funding Contractual Work. MTFs liberally interpreted forward
funding guidance and related principles of Federal appropriation law. We based
that conclusion on results from our prior audit (Inspector General of the
Department of Defense [IG DoD] Report No. D-2003-113, “Franchise Business
Activity Contracts for Medical Services,” June 30, 2003) and discussions with
contracting personnel in the Military Health System. Forward funding is
authorized by 10 U.S.C. 2410, which allows for the use of annual DoD
appropriations beyond the end of the fiscal year for a contract of severable
services entered into during the current year, provided the contract does not
exceed 12 months in duration. Principles of appropriation law provide that
services should generally be charged to the appropriation current at the time the
services are rendered.

As discussed in IG DoD Report No. D-2003-113, MTFs used the Department of
the Treasury Franchise Business Activity (FBA) to acquire health care services,
potentially forward funding health care services contracts. For instance, an Army
MTF visited during that review used FY 2002 funds to request task orders for
medical services totaling about $400,000, with a projected work start date of


                                     7
           September 30, 2002. Army Audit Agency Report No. A-2002-0562-IMH,
           “Management Controls for Reimbursable Orders, U.S. Army Garrison Fort Sam
           Houston,” September 16, 2002, describes how an Army MTF used an FBA
           contract to spend appropriated funds from one year for obligations in subsequent
           years. We believe that the exception to forward funding in 10 U.S.C. 2410 does
           not apply to medical services acquired through franchise funds because the statute
           only applies to contracts awarded by DoD. DoD used the FBA through a
           memorandum of understanding between the FBA and the MTF. The actual
           contract was between the FBA and the health care provider. Thus, the forward
           funding statute would not apply to medical services acquired through the FBA by
           DoD. Further, in response to IG DoD Report No. D-2003-113, the Office of
           General Counsel, TRICARE Management Activity, in conjunction with the
           Office of General Counsel, DoD, stated that “although the FBA may use its fund
           without fiscal year limitation under its enabling statute, use of the fund does not
           change the period of availability of the customer agency’s (DoD’s)
           appropriation.”

           In addition to the FBA forward funding issue discussed in the prior report, we
           found other examples of year-end procurement of medical services that provide
           the appearance of inappropriate use of the statute. Although we recognize that the
           timing of funding releases are not within the control of the MTFs, we believe that
           OASD(HA) and the Military Departments need to issue guidance concerning the
           use of the forward funding statute to acquire medical services and monitor the use
           of the statute.

           Minimum Guarantees in Contracts. The Army and the Navy used different
           approaches on how to award minimum guaranteed work required under MATO
           contracts.4 Through discussions with contracting officials at HCAA and NMLC
           (the two medical contracting organizations issuing MATOs for medical services)
           and through review of three MATO contracts, we determined that the Army and
           the Navy handled the awarding of minimum guaranteed work in significantly
           different ways.

           On the two iMAP MATO contracts, the Army awarded a small minimum
           guaranteed order ($10,000 to $15,000) per contractor. The amount was arrived at
           by estimating the profit a contractor would receive on the average value of an
           Army task order or contract for similar services based on historical data. A task
           order was funded in the amount of the guaranteed minimum and issued at the time
           of contract award. Throughout the year, all contractors competed for task orders.
           At the point in time when the contractor received a competitive award of a task
           order, the minimum guarantee was considered to have been met and the original
           task order for the guaranteed minimum was cancelled. The guaranteed minimum
           amount was only paid if a contractor did not receive any work through the
           contract. The HCAA considered the approach to be reasonable, because it
           managed cost risk associated with the guaranteed minimums while increasing
           competition.



4
    To make MATO contracts legally binding, each contractor is to receive a guaranteed minimum amount of
    work. See Appendix C for further explanation of MATO contracts.



                                                    8
           According to NMLC officials, rather than waiting to the end of the contract to pay
           for guaranteed minimum work, NMLC awarded large minimums up front. We
           examined one large Navy MATO contract. The Navy had issued guaranteed
           minimums through initial task orders, totaling about $5.8 million, to five
           contractors. NMLC awarded each contractor from $700,000 to $2.2 million of
           work without providing each contractor a fair opportunity to bid on those initial
           task orders in accordance with Federal Acquisition Regulation (FAR)
           Subpart 16.505, “Ordering.” All five contractors were subsequently awarded a
           logical follow-on task order non-competitively.

           FAR Subpart 16.505 permits awards based on minimums, but does not specify
           when to award the minimum. According to IG DoD Report No. D-2001-189,
           “Multiple Award Contracts for Services,” September 30, 2001, a prudent business
           practice would be to award those minimums only when the contract period is
           nearing completion and the contractor has not yet been awarded a task order.
           Although awarding the large task orders immediately after awarding the contract
           might not have violated the FAR, it might not have resulted in the best value
           (quality and price) to DoD and the Government because the MATO contractors
           were not provided a fair opportunity to bid on each task order.5 Further, the lack
           of competition might have been continued through the award of the logical
           follow-on task orders. FAR Subpart 16.505 generally exempts logical follow-on
           task orders from competition; however, FAR Subpart 16.505 states that all
           vendors must have been provided a fair opportunity to bid on the original task
           order to exempt a logical follow-on task order from competition. Consequently,
           we believe that OASD(HA) and the Military Departments need to strengthen
           guidance stating how contracting offices should award minimum guaranteed work
           and logical follow-on task orders for MATO contracts to ensure that DoD and the
           Government achieve best value through maximum competition.

           Use of Individual Set-Aside Contracts. MTFs were using ISA contracts (which
           are contracts with individual health care providers) to acquire the services of
           health care professionals in instances when it may not have been the most
           effective contracting method. Based on discussions with Military Health System
           contracting officials and through reviews of selected contract actions, we believe
           that MTF personnel were not fully aware of the consequences of using ISAs.
           HCAA, NMLC, and six MTFs visited used ISA contracts to acquire the services
           of health care professionals. We believe ISA contracts should only be used after
           consideration of cost impacts. According to an Army Medical Contracting
           Command information paper on using contracts with individual health care
           providers, administrative costs to consider when determining whether an ISA
           contract is appropriate include effort required to recruit, credential, relocate, train,
           pay (including fringe benefits and tax considerations), document, supervise,
           assess, and schedule. When the Government awards a contract to a company for
           an individual or individuals to work under the contract, the company is
           responsible for those administrative tasks. Further, ISA contracts do not allow for
           replacements. Contracting with individual health care professionals requires that
           a separate contract be awarded each time a health care professional is needed,
           whereas a contract with a company provides for replacements without having to

5
    Each task order of a MATO contract is competed among a pool of pre-qualified vendors. See
    Appendix C for further explanation of MATO contracts.



                                                    9
issue another contract. Another potential problem is the pre-selection of
individuals for contractual work. At one Army MTF visited, we found numerous
indicators that contractors were potentially pre-selected for the 12 ISA contracts
we selected for review, including:

       •   10 of the 12 were awarded to the source suggested by the requestor;

       •   9 of 12 bids were within $5 of the Government estimate;

       •   6 of 12 received 2 or fewer bids;

       •   6 of 12 winning bidders had prior experience working at the MTF;

       •   5 of 12 contract files had no documentation of a technical evaluation;
           and

       •   4 of 12 contract files lacked documentation of contract advertisement.

We recognize that ISA contracts may be appropriate in certain circumstances,
such as acquiring a scarce specialty or filling vacancies in remote markets.
Further, we recognize that there are some costs (such as general and
administrative expenses) that are not included in ISA contracts.

Although the HCAA and NMLC were fully aware of and appeared to use ISA
contracts only when appropriate, MTFs needed additional guidance on using ISA
contracts. In addition to the administrative costs, ISA contracts may impose a
financial liability on the Government. In August 2002, the Internal Revenue
Service ruled that a dental hygienist engaged by the Navy through an ISA
contract was in fact an employee, not a contractor; therefore, the amounts paid to
the individual were wages and subject to federal employment taxes and income
withholding. According to the ruling, any individual engaged by the Navy under
similar circumstances was also to be considered an employee, not a contractor.
According to Navy and Defense Financial and Accounting Service San Diego
officials, DoD had not paid any Federal Insurance Contributions Act (FICA) taxes
for the dental hygienist or any other health care worker hired through similar ISA
contracts. Defense Financial and Accounting Service officials stated that they do
not have the mechanism to make such payments and Defense Financial and
Accounting Service pays individuals based on the terms of the contracts. The
Internal Revenue Service ruling could have an impact on Government financial
statements and Defense Financial and Accounting Service workload. Until this
issue is resolved, we believe that the Military Health System should reduce
potential liability by limiting the use of ISA contracts. With the aid of personnel
from the Office of the Under Secretary of Defense for Acquisition, Technology,
and Logistics (OUSD[AT&L]), we identified 756 contracts in DCADS that listed
an individual’s name as the contractor (2002 data). If the Internal Revenue
Service ruling applied to all 756 contracts, the 2002 FICA liability of DoD could
be about $2.5 million.

OASD(HA) and the Military Departments need to issue appropriate guidance
concerning the use of ISA contracts and provide oversight to ensure that MTFs



                                    10
and medical contracting personnel are made aware of cost considerations, the
limited flexibility that the contracts provide regarding replacement personnel, and
the potential for limiting competition.

Competition. Acquisitions for non-TRICARE medical services indicate a need
for oversight of the adequacy of the competition achieved. With the assistance of
personnel from the Directorate for Information Operations and Reports,
Washington Headquarters Services, we examined DCADS data for 2002 and
found that 50 percent of the non-TRICARE medical services contract actions,
excluding sole-source actions, obligations, deobligations, modifications, and
logical follow-ons, received only one bid, as shown in the following table.

          2002 Medical Services Contractual Actions With One Bid

                                           Actions
                           Contract         With
                           Actions         One Bid           Percent

     Army                     455             254              56

     Navy                     454             200              44

     Air Force                 63              33              52

       Total                  972             487              50



We were unable to evaluate the extent to which those actions were competed
because the data can only be validated by reviewing each and every contract file.
Consequently, we recognize that the data may include valid instances of market
conditions that resulted in the receipt of only one offer even though more than one
contractor was solicited. Although the data alone was not conclusive evidence
that a problem exists, it was certainly an indicator supporting the need for further
management attention. Discussions with Military Health System contracting
officials and a review of selected contract actions showed examples where
competition could have been improved without curtailing health care services
provided to beneficiaries. For example, one MTF received only one bid for a
geneticist position that it advertised for only 2 days in the local newspaper with a
circulation of only 150,000. Although the advertisement satisfied Defense
Federal Acquisition Supplement Subpart 237.104, “Personal Services Contracts,”
we believe advertising in a neighboring city’s newspaper that had a circulation
more than 3 times that of the local paper could have provided more robust
competition. In another example, the technical evaluation for a contract for
optometry services included a requirement for the vendor to have had 3 years of
active duty experience. As a result, only one vendor was deemed qualified.
Moreover, as mentioned earlier in this report, half of the contracts reviewed (6 of
12 contracts) at another Army MTF received fewer than 3 bids and often (10 of
12 times) were awarded to the suggested source. Additionally, the NMLC
practice of awarding large minimum guarantees as initial task orders for MATO
contracts, in combination with award of logical follow-on task orders, can also


                                      11
           limit competition. Although we were not able to fully evaluate the extent each
           contract action was competed, the DCADS competition percentages and examples
           of limited competition of ISA contracts and MATO task orders indicate a need for
           improved oversight of competition for non-TRICARE medical services contracts.


Strategic Approach
           The Military Health System could improve the effectiveness and consistency of
           contracting for non-TRICARE medical services by developing an acquisition
           strategy and better coordinating its contracting efforts. The DoD approach to
           acquiring non-TRICARE medical services is inconsistent and fragmented. While
           we recognize that MTFs should have the ability to satisfy their medical services
           needs locally, we believe there needs to be greater sharing of contracting
           resources and stronger guidance and oversight to ensure efficient use of
           non-TRICARE medical services contracts in accordance with applicable Federal
           laws and regulations. Spending on non-TRICARE medical services are expected
           to exceed $1 billion annually as a result of workload increases caused by
           converting various TRICARE services to non-TRICARE contracts.6 The sharing
           of contracting resources among the Military Departments should provide for
           greater contracting capacity which would help absorb workload increases.

           Our concerns over the lack of an acquisition strategy are consistent with the
           position taken by the General Accounting Office (GAO) regarding DoD services
           contracts in two recent reports. Both GAO Report No. GAO-03-661, “Best
           Practices: Improved Knowledge of DoD Service Contracts Could Reveal
           Significant Savings,” June 2003, and GAO Report No. GAO-03-935, “Contract
           Management: High-Level Attention Needed to Transform DoD Services
           Acquisition,” September 2003, recognize that DoD is not moving quickly toward
           a strategy for acquiring services. GAO reported that DoD was only in the
           beginning stages of a procurement study for services acquisitions and that the
           DoD management structure in place for acquiring services only required reviews
           of individual acquisitions valued at more than $500 million.

           Procurement Study. We believe that the development of an acquisition strategy
           is consistent with ongoing OUSD(AT&L) efforts to improve services contracting.
           On February 6, 2003, the Deputy Secretary of Defense tasked OUSD(AT&L) to
           perform a spend analysis of DoD-purchased services. Out of 52 subcategories of
           services spending, the analysis identified 10 as attractive for new procurement
           strategies, of which 5 were selected for the development and execution of new
           procurement strategies, referred to as pilot programs. Medical services accounted
           for 3 of the 52 subcategories, but none were selected as attractive for new
           procurement strategies. Considering that spending on non-TRICARE medical
           services is expected to exceed $1 billion annually, we believe that the Under
           Secretary of Defense for Personnel and Readiness should request that
           OUSD(AT&L) establish a pilot program for non-TRICARE medical services. If

6
    The Military Departments estimated an increased workload in contracting valued at $358 million for
    FY 2005 from the conversion of various services from TRICARE to non-TRICARE contracts under the
    next generation of TRICARE contracts.



                                                   12
           establishing such a pilot program is not possible as part of the OUSD(AT&L)
           effort, OASD(HA) needs to conduct an analysis similar to the pilot program
           review.

           Centers of Excellence. The acquisition strategy for non-TRICARE medical
           services should include the implementation of the centers of excellence concept.
           IG DoD Report No. D-2000-100, “Contracts for Professional, Administrative, and
           Management Support Services,” March 10, 2000, recommended, and DoD
           agreed, that centers of excellence with knowledgeable buyers for specific services
           be established, rather than relying on every contracting officer to be an expert on
           multiple markets or multiple suppliers within one market. Additionally, Public
           Law 106-398, “National Defense Authorization Act for FY 2001,” October 30,
           2000, required the Secretary of each Military Department to establish at least one
           center of excellence in contracting for services.7 The Army designated HCAA as
           the center of excellence for health care acquisition. No other action was taken by
           the Military Departments or OASD(HA) to implement the centers of excellence
           concept as it relates to acquiring non-TRICARE medical services. However, the
           Navy stated that although not formally designated as such, NMLC is acting in the
           capacity of a center of excellence. OASD(HA) and the Military Departments
           should include the centers of excellence concept in a DoD strategy for the
           acquisition of non-TRICARE medical services. There are different ways the
           concept could be implemented. For example, each Military Department could be
           appointed as the center of excellence for certain categories of medical services,
           such as ancillary services, physician services, or laboratory testing services. That
           would permit each Military Department to maintain its own contracting
           organizations to ensure its MTFs are supported, yet provide a focal point for best
           practices and inter-Military Department contracts for specific types of medical
           services acquisitions.


Guidance and Oversight
           In addition to developing a strategy, the Military Health System needs additional
           acquisition guidance and oversight. According to OASD(HA) officials, they do
           not monitor nor provide policy or procedures regarding the acquisition of
           non-TRICARE medical services. However, DoD Directive 5136.1, “Assistant
           Secretary of Defense for Health Affairs (ASD(HA)),” May 27, 1994, states that
           OASD(HA) provides policy and procedures for DoD medical programs. Further,
           DoD Instruction 6025.5 requires that OASD(HA) monitor Military Department
           use of personal services contracts to ensure that it is cost-effective when
           compared to other methods, such as TRICARE or conversion to either military or
           civilian staff billets. Neither OASD(HA) nor the Military Departments were fully
           monitoring the acquisition of non-TRICARE medical services. Although Military
           Department medical contracting officials were generally aware of contracting
           actions issued through their medical contracting offices, such as HCAA and
           NMLC, none of the Military Departments monitored contracting actions taken at
           the MTF or base level. The Navy’s Bureau of Medicine and Surgery Instruction

7
    The Act states each center of excellence shall assist the acquisition community by identifying and serving
    as a clearinghouse for best practices in contracting for services in the public and private sectors.



                                                       13
    4200.2A, “Healthcare Contracting” (draft), provides guidance on the use of
    personal and non-personal services contracts, the FBA, and ISA contracts;
    however, the Instruction has been in draft since at least May of 2002.
    OASD(HA) and the Military Departments need to improve oversight for medical
    services acquisitions and strengthen guidance to ensure, at a minimum, that the
    most appropriate contracting methods are used, that appropriation law is
    implemented properly and consistently, that MATO contracts are used
    consistently and effectively, and that competition is achieved to the maximum
    extent practicable.


Conclusion
    Although DoD and the Military Departments had taken action to improve the
    acquisition of non-TRICARE medical services, additional attention was needed to
    ensure that MTFs are able to satisfy requirements quickly and in the most
    effective manner. By developing an acquisition strategy for non-TRICARE
    medical services and better coordinating contracting efforts, the Military Health
    System could:

           •   reduce duplication and fragmentation among DoD contracting
               organizations that acquire medical services;

           •   reduce exposure to risk from non-personal services contracts
               administered as personal services contracts;

           •   increase competition in contracting; and

           •   avoid a potential FICA liability, which may be incurred by the use of
               ISA contracts.

    In addition, due to the lack of uniformity regarding the use of FBA contracts to
    forward fund appropriations from one fiscal year for work performed in the next
    fiscal year, we believe that clarifying guidance would be appropriate. Although
    we have cited examples where medical services contracting could have been
    improved, nothing in this report should be interpreted as though the Military
    Health System has not provided quality health care to its beneficiaries.


Management Comments on the Finding and Audit Response
    The Assistant Secretary of Defense (Health Affairs) commented that the
    legislative relief granted to DoD in 10 U.S.C. 2410a to permit the funding of
    severable services to cross fiscal years is not premised on whether the period of
    performance is within the control of the agency. As a result, we revised our
    posture on the Navy’s interpretation of the forward funding statute and modified
    the report to reflect that.




                                        14
Recommendations, Management Comments, and Audit
  Response
    Revised Recommendations. In response to management comments, we revised
    the terminology from “non-TRICARE medical services” to “direct care medical
    services” in Recommendations 2., 5., and 6., in the report title and finding title,
    and in the executive summary.

    1. We recommend that the Under Secretary of Defense for Personnel and
    Readiness, as co-chair of the DoD/Department of Veterans Affairs Joint
    Executive Council, review potential solutions to barriers of DoD and
    Department of Veterans Affairs sharing caused by incompatible statutory
    authority to award personal services contracts.

    Under Secretary Comments. The Under Secretary of Defense for Personnel and
    Readiness did not comment on the recommendation.

    Air Force Surgeon General Comments. Although not required to comment, the
    Office of the Air Force Surgeon General agreed with the recommendation and
    stated the current lack of statutory authority of the Department of Veterans
    Affairs to award personal services contracts for Air Force MTFs creates a
    potential barrier to the award of appropriate contracts. Further, the Air Force
    commented that extending the DoD personal services contracting authority to the
    Department of Veterans Affairs would promote DoD and Department of Veterans
    Affairs sharing initiatives.

    Audit Response. We request that the Under Secretary of Defense for Personnel
    and Readiness provide comments in response to the final report.

    2. We recommend that the Under Secretary of Defense for Personnel and
    Readiness request that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics establish a pilot program for acquiring direct care
    medical services.

    Under Secretary Comments. Although the Under Secretary of Defense for
    Personnel and Readiness did not comment on the recommendation, comments
    provided by the Office of the Under Secretary of Defense for Acquisition,
    Technology, and Logistics satisfy the intent of the recommendation.

    Although not required to comment, the Office of the Under Secretary of Defense
    for Acquisition, Technology, and Logistics agreed with the recommendation and
    has initiated coordination with the Assistant Secretary of Defense (Health
    Affairs). The planned course of action is to name a Military Department
    executive agent to be responsible for establishing a commodity team comprised of
    representatives from each Military Department. The commodity team will be
    tasked with developing an acquisition strategy for direct care medical services
    and recommending a pilot program based on that strategy.

    Air Force Surgeon General Comments. Although not required to comment, the
    Office of the Air Force Surgeon General agreed with the recommendation and


                                         15
stated that the pilot program effort should include input from the Services and the
Department of Veterans Affairs. The Air Force cited success in implementing
improvements in acquiring medical equipment through a similar effort.

3. We recommend that the Assistant Secretary of Defense (Health Affairs)
request a legal review concerning Federal Insurance Contributions Act tax
for individual set-aside contracts.

Management Comments. The Assistant Secretary of Defense (Health Affairs)
concurred.

4. We recommend that if the legal review requested in Recommendation 3.
determines that individual set-aside contracts are subject to Federal
Insurance Contributions Act tax, that the Under Secretary of Defense
(Comptroller)/Chief Financial Officer:

      a. Develop a process for future payments of Federal Insurance
Contributions Act tax for individual set-aside contracts.

      b. Direct fund holders who did not pay the required Federal
Insurance Contributions Act tax to determine the existence of a liability and
to make the necessary accounting entries for Government financial
statements.

Under Secretary Comments. The Acting Under Secretary of Defense
(Comptroller)/Chief Financial Officer concurred and stated that after the legal
opinion from Recommendation 3., the Office of the Under Secretary will address
the required changes for withholding FICA and other payroll taxes in its Business
Modernization System Integration effort. Further, the Acting Under Secretary
stated that he will direct the appropriate fund holders to determine the existence
of FICA liabilities, make the required employee withholding for FICA taxes, and
make all required adjustments to the financial statements.

Assistant Secretary of Defense (Health Affairs) Comments. Although not
required to comment, the Assistant Secretary of Defense (Health Affairs) agreed
with the recommendation.

5. We recommend that the Assistant Secretary of Defense (Health Affairs),
in conjunction with the Military Department Surgeons General:

       a. Develop a coordinated strategy for acquiring direct care medical
services that includes the implementation of the centers of excellence
concept.

       b. Develop implementing guidance for acquiring direct care medical
services. At a minimum, issue guidance on:

               (1) The use of personal versus non-personal services contracts.

               (2) The appropriate use of forward funding.



                                    16
              (3) The fulfillment of minimum guarantees for multiple award
task order contracts.

               (4) The use of individual set-aside contracts.

Assistant Secretary of Defense (Health Affairs) Comments. The Assistant
Secretary of Defense (Health Affairs) concurred.

Air Force Surgeon General Comments. Although not required to comment, the
Office of the Air Force Surgeon General agreed with Recommendations 5.a.,
5.b.(1), 5.b.(3), and 5.b.(4) and disagreed with Recommendation 5.b.(2). The Air
Force agreed with the center of excellence concept and has begun to establish a
center of excellence specifically for medical acquisition at Wright-Patterson Air
Force Base. Further, the Air Force has already made changes to Air Force
guidance requiring coordination through the Services’ designated official for
planned acquisitions with non-DoD agencies. The Office of the Air Force
Surgeon General also agreed that establishment of implementing guidance on the
appropriate use of forward funding and use of ISAs would be helpful and stated
that the timing for the release of funding for medical services acquisitions needs
to be addressed in order to permit procurement personnel to timely establish
medical services contracts.

Audit Response. We understand the Air Force concerns regarding funding
release issues; however, timing of appropriations was outside of the scope of our
audit.

6. We recommend that the Military Department Surgeons General develop
an oversight process for the acquisition of direct care medical services, to
include, at a minimum, monitoring:

       a. The type and character of contracts used.

       b. The use of the forward funding statute.

      c. The award of minimum guarantees for multiple award task order
contracts.

       d. The extent of contract competition.

Assistant Secretary of Defense (Health Affairs) Comments. The Assistant
Secretary of Defense (Health Affairs) concurred.

Army Surgeon General Comments. The Deputy Surgeon General of the Army
concurred. The Army intends to include the elements of the recommendation in
its Procurement Management Review Program beginning September 30, 2004.

Navy Surgeon General Comments. The Navy Surgeon General did not
comment on the recommendation.

Air Force Surgeon General Comments. The Office of the Air Force Surgeon
General concurred. The Office of the Air Force Surgeon General stated that an


                                    17
    oversight process for acquiring non-TRICARE medical services should include
    the Assistant Secretary of the Air Force (Acquisition), which has the primary
    responsibility for services acquisition contracting. Additionally, the Office of the
    Air Force Surgeon General stated that the Air Force Medical Service should
    identify requirements and, in conjunction with the other Services and the
    Department of Veterans Affairs, develop an overall strategy for acquiring
    non-TRICARE medical services. Further, the Office of the Air Force Surgeon
    General stated that in developing an oversight process, the newly formed Air
    Force Medical Service Commodity Council should collaborate with the medical
    acquisition center of excellence at Wright-Patterson Air Force Base, the Assistant
    Secretary of the Air Force (Acquisition), the Air Force Surgeon General, and the
    Tri-Service Medical Contracting Working Group.

    Audit Response. We request that the Navy Surgeon General provide comments
    in response to the final report.


Management Comments on the Management Control Program
    The Assistant Secretary of Defense (Health Affairs) disagreed with our
    assessment of the management control program. The Assistant Secretary states
    that the findings in this report do not constitute a material management control
    weakness and states that adequate oversight is provided by the Military
    Departments. In order to strengthen the management control program, the
    Assistant Secretary plans to initiate a new assessable unit for the Defense Health
    Program that addresses the topic of acquiring direct care medical services. The
    Assistant Secretary indicated supplemental guidance would be issued to the
    FY 2004 management control program guidance previously released to the
    Military Departments.




                                         18
Appendix A. Scope and Methodology
   We reviewed public laws, the FAR, and DoD and Military Department
   regulations relating to the acquisition of medical services. We also downloaded
   DCADS data from the Web and queried for contract actions reported under
   Federal supply code Q (medical services). Using DCADS data for 2000 through
   2003, we identified initial locations to visit based on the total amount of non-
   TRICARE medical services (non-information technology) acquired and the types
   of contracts used to acquire them. We also identified information in DCADS that
   could have been used by the Military Departments and OASD(HA) to manage
   those acquisitions, including identification of overlapping contracts. Using
   DCADS, we identified Army and Navy contracts for the same Federal supply
   code classification in the same geographic area, but did not review detailed
   statements of work for those contracts. We visited the office within each Military
   Department that was delegated the responsibility for medical services acquisitions
   by each respective Surgeon General. Additional sites were judgmentally selected
   to include MTFs from each Military Department, both large and small, and those
   organizations that were involved in issues raised during the audit. To gain an
   understanding of how DoD medical facilities acquire medical services and to
   determine what guidance and controls exist regarding the procurement of those
   services, we visited and held discussions with personnel from:

          •   Army Medical Command, San Antonio, Texas;

          •   HCAA, San Antonio, Texas;

          •   NMLC, Fort Detrick, Maryland;

          •   Air Force Medical Logistics Office, Fort Detrick, Maryland;

          •   FISC San Diego, California;

          •   FISC Norfolk, Detachment Philadelphia, Pennsylvania;

          •   Brooke Army Medical Center, San Antonio, Texas;

          •   Madigan Army Medical Center, Tacoma, Washington;

          •   McDonald Army Community Hospital, Newport News, Virginia;

          •   Walter Reed Army Medical Center, Washington, D.C;

          •   Naval Medical Center San Diego, California;

          •   Naval Medical Center Portsmouth, Virginia;

          •   62nd Medical Group, McChord Air Force Base, Tacoma, Washington;
              and

          •   Wilford Hall Medical Center, San Antonio, Texas.


                                       19
To determine the extent of DoD-wide coordination of medical services
contracting, we met with officials from OUSD(AT&L), OASD(HA), and the
Offices of the Surgeons General of the Military Departments.

We examined documentation pertaining to 125 contract actions (Federal Supply
Code Q) that were used by the Military Departments during FY 2000 through
FY 2003 to acquire medical services, valued at about $73 million. We did not
select the 125 contract actions prior to our site visits. Rather, we judgmentally
selected the contract actions based on issues that we identified at each site
through discussions with Military Health System officials and through reviews of
contract actions reported in DCADS. The documents in our review were dated
from May 1995 through October 2003. Initially, we reviewed documentation
supporting contract actions awarded for medical services to determine whether
contracting officials were following prescribed procedures for awarding and
managing the contracts. However, we shifted our focus during the course of the
audit to the approaches used by the Military Departments at different
organizational levels of contracting to acquire non-TRICARE medical services.
As a result, we did not review the same issues at each location visited. Although
we identified issues that affected competition in contracting, we were not able to
fully evaluate whether competition was achieved on every contract action
reviewed because all related supporting documents were not readily available.
We assessed appropriateness of acquisition methodologies. We did not review
the validity of contract payments made by DoD medical facilities for
non-TRICARE medical services. To estimate the potential Government liability
for FICA applicable to ISA contracts awarded in 2002, we obtained a listing of
DCADS contracts listing an individual’s name as the contractor and applied a
7.65 percent tax to the total contract values. We performed phase one of this
audit from April 2002 to May 2003, which resulted in IG DoD Report No.
D-2003-113. We performed this audit from May 2003 through March 2004 in
accordance with generally accepted government auditing standards.

Use of Computer-Processed Data. With assistance from the Directorate for
Information Operations and Reports, Washington Headquarters Services, we used
DCADS to determine the scope of medical contracting for supplemental
(non-TRICARE) medical care. Although DCADS is the most comprehensive
system within DoD for accumulating contract actions, data reliability is
questionable. In GAO Report No. 03-1068, “Contract Management: No Reliable
Data to Measure Benefits of the Simplified Acquisition Test Program,”
September 2003, GAO reported significant data reporting errors in DCADS.
During the course of this audit and the previous audit (IG DoD Report
No. D-2003-113), we identified that DoD contract actions for non-TRICARE
medical services with non-DoD agencies are not included in DCADS. Although
we relied on the reporting system to estimate the scope of non-TRICARE medical
services contract dollars and provide competition data for non-TRICARE medical
services contract actions, we did not validate its reliability because it did not
affect the overall audit conclusions.

GAO High-Risk Area. GAO has identified several high-risk areas in DoD. This
report provides coverage of the DoD Contract Management and the DoD Support
Infrastructure Management high-risk areas.



                                    20
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed
    management control procedures related to contract actions awarded for
    non-TRICARE medical services (Federal Supply Code Q). We specifically
    reviewed appropriateness of contract type and acquisition methodology. We
    reviewed management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for the Military Departments and OASD(HA) as defined by
    DoD Instruction 5010.40. Military Department and OASD(HA) management
    controls were inadequate to ensure that DoD acquired non-TRICARE medical
    services in the most effective manner. Recommendations 2., 4.a., 5., and 6., if
    implemented, will improve procedures that the Military Departments and
    OASD(HA) use for awarding and managing contracts. A copy of the report will
    be provided to the senior official responsible for management controls within the
    Military Departments and the OASD(HA).

    Adequacy of Management’s Self-Evaluation. The Army did not identify the
    material management control weaknesses identified by this audit because the
    Army only recently established HCAA as an assessable unit and did not conduct
    all scheduled procurement management reviews during FY 2002. However, as
    the Army HCAA management control program matures, medical services
    contracting efforts will be subject to additional oversight. The Air Force defined
    assessable units related to the acquisition of non-TRICARE medical services too
    broadly to identify or report the material management control weaknesses
    identified by the audit. The Navy did not define procurement of non-TRICARE
    medical services as an assessable unit in its FY 2002 management control
    program and, accordingly, did not identify the material management control
    weaknesses cited in this report.




                                        21
Appendix B. Prior Coverage
    During the last 5 years, the GAO, the IG DoD, and the Army Audit Agency have
    issued eight reports related to contracting for services. Unrestricted GAO reports
    can be accessed over the Internet at http://www.gao.gov. Unrestricted IG DoD
    reports can be accessed at http://www.dodig.osd.mil/audit/reports. Army reports
    can be accessed over the Internet at https://www.aaa.army.mil from certain
    domains.


GAO
    GAO Report No. GAO-03-935, “Contract Management: High-Level Attention
    Needed to Transform DoD Services Acquisition,” September 2003

    GAO Report No. GAO-03-1068, “Contract Management: No Reliable Data to
    Measure Benefits of the Simplified Acquisition Test Program,” September 2003

    GAO Report No. GAO-03-661, “Best Practices: Improved Knowledge of DoD
    Service Contracts Could Reveal Significant Savings,” June 2003


IG DoD
    IG DoD Report No. D-2004-015, “Contracts for Professional, Administrative, and
    Management Support Services,” October 30, 2003

    IG DoD Report No. D-2003-113, “Franchise Business Activity Contracts for
    Medical Services,” June 30, 2003

    IG DoD Report No. D-2001-189, “Multiple Award Contracts for Services,”
    September 30, 2001

    IG DoD Report No. D-2000-100, “Contracts for Professional, Administrative, and
    Management Support Services,” March 10, 2000

Army Audit Agency
    Army Audit Agency Report No. A-2002-0562-IMH, “Management Controls for
    Reimbursable Orders, U.S. Army Garrison Fort Sam Houston,”
    September 16, 2002




                                        22
Appendix C. Contractual Methods
Character of Contract Services
     Contracts for medical services may be characterized as personal or non-personal
     in nature and acquired through many different contract types. FAR Part 37,
     “Service Contracting,” provides a detailed description of personal and
     non-personal services contracts.

     Personal Services Contracts. Personal services contracts are characterized in
     FAR Part 37 as establishing an employer-employee relationship between the
     Government and the contract health care professional. The Secretary of Defense
     is authorized under 10 U.S.C. 1091 to enter into personal services contracts for
     clinical health care providers. DoD Instruction 6025.5, “Personal Services
     Contracts for Health Care Providers,” January 6, 1995, states that personal
     services contracts are the preferred method of contracting for health care
     providers who are subject to the direction and supervision of the Government.
     According to the Instruction, in a medical setting, the direction and supervision of
     contract personnel is an assumption of liability, and the Government provides
     legal representation for medical malpractice claims brought against a contractor
     working under such circumstances. FAR Subpart 37.104, “Personal Services
     Contracts,” provides the following elements to aid in determining whether a
     contract is personal in nature:

            •   contract performance is on site;

            •   equipment for contract performance is provided by the Government;

            •   contract performance applies directly to the organizational function or
                mission;

            •   services provided under the contract are also provided by civilian
                Government employees;

            •   the need for the services can be reasonably expected to last beyond
                1 year; or

            •   the nature of the services, or the manner in which the services are
                provided, require Government direction or supervision.

     Non-Personal Services Contracts. Per FAR Subpart 37.101, “Definitions,” a
     health care professional contracted under a non-personal services contract is not
     subject, by either the contract terms or the manner of administration, to the
     supervision and control of the Government. Rather, the contractor is supervised
     by the company with which the Government contracted for the services. Thus,
     non-personal services contracts are most appropriate when the services may be
     segregated within the facility and the contractor is responsible for providing an
     entire service or function (such as a complete emergency room or optometry
     clinic). In such instances, FAR Subpart 37.401, “Policy,” states that the


                                          23
    contractor must indemnify the Government against legal action alleging
    malpractice by non-personal services contract health care professionals.
    Contracting experts that we interviewed indicated non-personal services contracts
    for health care professionals usually cost more than personal services contracts
    because the contractor’s cost of malpractice insurance is passed on to the
    Government in the contract price.


Contract Types
    There are a variety of types of contracts available to MTFs to fulfill medical
    needs not met by TRICARE. The following paragraphs describe selected contract
    types used at the locations visited during the audit.

    Individual Set-Aside Contracts. An ISA is a firm-fixed-price contract made
    directly with the health care professional in accordance with FAR Subpart 13,
    “Simplified Acquisition Procedures.” ISAs can usually be put in place in less
    than 140 days.

    Multiple Award Task Order Contracts. FAR Subpart 16.5, “Indefinite-
    Delivery Contracts,” describes a MATO contract as an indefinite-delivery
    contract awarded to two or more contractors that typically contains minimum and
    maximum levels of services the Government plans to order from the contractors.
    Individual task orders are competed on the basis of price or past performance and,
    in some cases, technical merit and timeliness. Services performed under MATO
    contracts may be personal or non-personal. It takes about 9 months to award a
    complex MATO; once in place, individual task orders can be issued within about
    60 days.

    General Services Administration and Department of Veterans Affairs
    Schedules. The General Services Administration’s Federal supply schedule
    provides the Government with a simplified process for acquiring goods and
    services through eight active schedules for medical products and services. The
    General Services Administration determines prices to be fair and reasonable prior
    to placing them on the schedule. It is incumbent upon ordering officers to
    negotiate prices using available discounts. The Air Force Medical Logistics
    Office acquires medical services through a fee-for-service agreement with the
    Department of Veterans Affairs, through delegation of General Services
    Administration’s statutory authority. The Department of Veterans Affairs is
    delegated statutory authority to administer the Federal supply schedule as it
    relates to health care. The Department of Veterans Affairs charges a surcharge
    ranging from 1 percent to 2 percent of the order. The Department of Veterans
    Affairs does not have personal services contracting authority, so all medical
    services acquired through the agreement must be through non-personal services
    contracts. According to Air Force Medical Logistics Office personnel, Air Force
    orders for medical services were typically filled within 11 days.

    Franchise Business Activity Contracts. As part of the franchise fund program,
    the Department of the Treasury created the FBA to provide Federal organizations
    common financial and administrative support services on a reimbursable basis.
    To acquire medical services using an FBA contract, MTFs enter into an


                                        24
interagency agreement with the FBA and place purchase calls or task orders
against existing contracts between the FBA and a vendor. According to FBA
officials, the surcharge for using its services varies by task order from 2 percent to
10 percent of the individual task order. The Department of the Treasury does not
have personal services contracting authority, so all medical services acquired
through the FBA must be through non-personal services contracts. According to
MTF personnel, contractors can be obtained in as few as 2 to 3 days once an
interagency agreement is in place.




                                     25
Appendix D. Summary of Recent Legislation on
            DoD Services Contracts
   The National Defense Authorization Acts for FYs 2001 and 2002 included
   specific provisions addressing DoD contracting for services. The legislation
   addresses the establishment and use of centers of excellence for acquiring
   services and the establishment and implementation of a management structure for
   the procurement of services.

   National Defense Authorization Act for FY 2001. The National Defense
   Authorization Act for FY 2001 (Public Law 106-398), October 30, 2000,
   section 821(c), “Centers of Excellence in Service Contracting,” required that not
   later than 180 days after the date of the enactment of the Act, the Secretary of
   each Military Department establish at least one center of excellence in contracting
   for services. Each center of excellence was to assist the acquisition community
   by identifying the best practices in contracting for services in both the public and
   private sectors.

   National Defense Authorization Act for FY 2002. The National Defense
   Authorization Act for FY 2002 (Public Law 107-107), December 28, 2001,
   section 801(b), “Requirement for Management Structure,” required that the
   Secretary of Defense establish and implement a management structure for the
   procurement of services for DoD. The management structure was to include a
   designated official for each Military Department, Defense agency, and DoD
   Component. The designated official would be responsible for managing the
   procurement of services and developing a way in which employees in Military
   Departments, Defense agencies, and DoD Components could be held accountable
   for carrying out the requirements for the procurement of services. The designated
   official was also responsible for establishing specific dollar thresholds and other
   criteria for advance approvals of purchases. The Secretary of Defense was
   required to establish and implement the management structure no later than
   180 days after the date of the enactment of the Act. Also, the OUSD(AT&L) was
   required to issue management structure guidance to designated officials on how to
   carry out their responsibilities.




                                        26
Appendix E. DoD and Military Department
            Initiatives
   DoD and the Military Departments had ongoing initiatives that could improve the
   acquisition of non-TRICARE medical services. For example, the Army
   established two large contracts for medical services with worldwide coverage
   capability and, in response to Public Law 106-398, implemented a center of
   excellence specifically for medical services acquisitions. In addition, DoD issued
   a new 5000 series instruction; the OUSD(AT&L) performed a spend analysis of
   DoD contracted services; and the Military Departments formed a tri-Service
   working group to create a pool of non-TRICARE contracting alternatives. Most
   recently, the OUSD(AT&L) issued a memorandum following up on some of those
   service acquisition initiatives within DoD.

   iMAP. In November 2001, the Army chartered the iMAP to improve Army
   processes used to acquire non-TRICARE medical services. The iMAP primarily
   consists of Web-based contracting tools, including two large MATO contracts,
   under which Army contracting officers may compete task orders among a pool of
   pre-qualified vendors more quickly than awarding a separate contract. The Army
   established two MATO contracts, one for physician services and the other for
   ancillary services. Those two contracts provide worldwide coverage and can be
   used by other Military Departments.

   Centers of Excellence. In response to Public Law 106-398, the Army directed
   each of its Major Commands to establish a center of excellence for services
   acquisitions. The Army Medical Command reported its existing HCAA as the
   center of excellence for medical services acquisitions in March 2002. According
   to IG DoD Report No. D-2004-015, the Air Force established one center of
   excellence in the Office of the Deputy Assistant Secretary of the Air Force
   (Contracting) for all types of services acquisitions, but does not require use of the
   center; the Navy has not yet established any centers of excellence because of
   technology infrastructure changes and a departmental reorganization. However,
   the Navy stated that the NMLC has been acting in the capacity of a center of
   excellence. The NMLC sponsors a Contracting Officer Representative training
   course designed to provide an overview of the health care acquisition process and
   policy guidance.

   Spend Analysis. On February 6, 2003, the Deputy Secretary of Defense tasked
   the OUSD(AT&L) to perform a spend analysis that involved a top to bottom,
   cross-functional analysis of procurement data in order to develop strategies
   necessary to conduct acquisitions as efficiently as possible. The goal of the
   analysis was to identify opportunities for improved efficiencies and economies in
   the acquisition of DoD services. The spend analysis, based on data obtained from
   the DCADS, was completed in August 2003. The spend analysis identified
   52 subcategories of services spending, excluding research and development.
   Further analysis identified that 10 of those subcategories were attractive for new
   procurement strategies. Of the 10 subcategories, 5 were selected to be taken
   through the development and execution of new procurement strategies, referred to
   as pilot programs. Although medical services accounted for 3 of the


                                        27
52 subcategories, none of the 3 medical-related subcategories were included in
the 10 selected as attractive for developing a new procurement strategy.

Tri-Service Medical Services Contracts Working Group. A Tri-Service
Medical Services Contracts Working Group was established March 12, 2003.
Chaired by the Air Force, the working group’s goal is to establish a pool of
contracting alternatives for MTFs to use to acquire medical services. The
Military Departments formed the working group in response to the removal of
many services previously provided under TRICARE. Specifically, the group’s
purpose is “to develop a fully integrated Tri-Service contract support system to
compliment the Tri-Service health care delivery system,” and its strategic goal is
“to provide professional medical services to the MHS [Military Health System]
through collaborative contracting methods that decrease acquisition costs and
improve service delivery responsiveness.” Among the group’s accomplishments
to date are determining the amount of services each Military Department must
convert from TRICARE to non-TRICARE contracts (defining TRICARE
carve-out requirements), assigning an appointing services contract award to the
Army, active fostering of interagency contracting with the Department of
Veterans Affairs, and creating an Air Force on-line conversion toolkit (with links
to the Army’s iMAP). The tri-Service group reports to the DoD/Department of
Veterans Affairs Acquisition Management Committee.

Contracting for Services. Most recently, the OUSD(AT&L) issued a
memorandum in October 2003 that requires the Military Departments and
Defense Agencies to:

       •   report by December 31, 2003, on efforts to establish centers of
           excellence for services contracting, how the centers are used, and the
           experience gained;

       •   report by March 31, 2004, the acquisition practices used to ensure
           contracting officers appoint representatives in accordance with
           Defense FAR Supplement Subpart 201.602-2(5) and are properly
           trained in accordance with Defense FAR Supplement
           Subpart 201.602-2(2); and

       •   report by March 31, 2004, on practices in place to ensure the
           appropriate contract type is used when acquiring services based on the
           criteria specified in FAR Part 16 and Defense FAR Supplement
           Part 216.

We contacted the OUSD(AT&L) on May 20, 2004. No responses to the
October 2003 memorandum had been received by the OUSD(AT&L).




                                    28
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense (Health Affairs)
General Counsel

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Surgeon General, Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Chief, Bureau of Medicine and Surgery
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Surgeon General, Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
DoD/Department of Veterans Affairs Joint Executive Council

Non-Defense Federal Organizations
Office of Management and Budget
Department of Veterans Affairs




                                          29
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        30
Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments
                                              Final Report
                                               Reference




                                              Terminology
                                              revised




                       31
32
Under Secretary of Defense (Comptroller)/Chief
Financial Officer Comments




                      33
34
Assistant Secretary of Defense (Health Affairs)
Comments




                       35
Final Report
 Reference




Terminology
revised




Revised




               36
     Final Report
      Reference




     Page 7
     Revised




37
Final Report
 Reference




Pages 15-18




Terminology
revised




Terminology
revised




               38
     Final Report
      Reference




     Terminology
     revised




     Terminology
     revised




     Page 21

     Terminology
     revised




39
40
Army Surgeon General Comments
                                Final Report
                                 Reference




                                Terminology
                                revised




                   41
Final Report
 Reference




Terminology
revised




               42
Air Force Surgeon General Comments




                    43
Final Report
 Reference




Revised




               44
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Readiness and Logistics Support prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.
Shelton R. Young
Michael A. Joseph
Scott J. Grady
Dawn Borum
Robin Parrish
John S. Epps
William F. Lanyi
Lynnell E. Whitehead
Eva M. Zahn
Elizabeth L. N. Shifflett
